T
op10ManagementChal
                 lenges
Major Challenges for the Department



This section highlights OIG’s Top 10 Management Challenges
that faced the Department at the close of this semiannual period.               Top 10 Management Challenges
Each challenge meets one or more of the following criteria: (1) it is        .	 Strengthen Department-wide information security.
important to the Department’s mission or the nation’s well-being,            .	 Effectively manage departmental and bureau acquisi­
(2) it is complex, (3) it involves sizable resources or expenditures,            tion processes.
or (4) it requires significant management improvements. Because
                                                                             .	 Strengthen internal controls over financial, program­

of the diverse nature of Commerce activities, these criteria some
                                                                                 matic, and business processes.

times cut across bureau and program lines. Experience has shown
that by aggressively addressing these challenges, the Department             4.	 Ensure that uSpto uses its authorities and flexibilities
can enhance program efficiency and effectiveness; eliminate seri                 as a performance-based organization to achieve better
                                                                                 results.
ous operational problems; decrease fraud, waste, and abuse; and
achieve substantial savings.                                                 5.	 Control the cost and improve the accuracy of the de­

                                                                                 cennial census.

                                                                             6.	 Effectively manage the development and acquisition of
                                                                                 environmental satellites.
Challenge 1
                                                                             7.	 promote fair competition in international trade.
Strengthen Department-Wide                                                   8.	 Effectively manage noaa’s ocean and living marine

                                                                                 resources stewardship.

Information Security
                                                                             9.	 aggressively monitor emergency preparedness, safety,
Since enactment of the Federal Information Security Management                   and security responsibilities.
Act (FISMA), government agencies have devoted significant re                0. Enhance export controls for dual-use commodities.
sources to improving the security of information stored on their
computer systems. The problem is long standing: GAO has iden
tified information security as a government-wide high-risk issue
every year since 1997. At Commerce, it is the No. 1 challenge and       for completing improved C&A packages, which recognized that the
has been a material weakness since 2001.                                amount of time necessary to complete the C&A process correctly
                                                                        had been continually underestimated. When revised schedules
To eliminate the material weakness, Commerce has emphasized             were finalized in June 2006, the Department’s Office of the CIO
improving its certification and accreditation (C&A) process for         (OCIO) expected a total of 28 C&A packages to be completed by
IT systems. In February 2005, the chief information officer (CIO)       the end of July, 27 of which were for high- or moderate- impact
issued a plan to produce acceptable quality C&A packages for all        systems.1 OCIO reviewed completed packages and worked with
national-critical systems and some mission-critical systems by the      the bureaus to address concerns, as necessary. If OCIO determined
end of FY 2005 and for all other systems by the end of FY 2006.         a package was of sufficient quality, it was forwarded to OIG for
In light of that plan, our approach to the C&A portion of our 2005      FISMA review. As of August 24, 2006, our agreed-upon cutoff
FISMA evaluation was to review all improved packages available          date, the CIO’s office had received packages for 22 high- and
by August 31, 2005. Only five were ready—three from NOAA                moderate-impact systems, 12 of which were forwarded to us.
and two from Census. Those packages showed some noteworthy              We evaluated a total of 15 C&A packages for FY 2006 FISMA
improvements. However, with such a low number of packages               reporting. Eleven of these packages were Commerce-owned sys
available for review and considering the deficiencies we found, we      tems that had gone through the improvement process, and four
concluded that the Department’s C&A process had not improved
to the point where authorizing officials had sufficient details about
remaining system vulnerabilities to make fully informed accredita
                                                                        1
                                                                          Commerce systems were previously categorized as national critical, mission
                                                                        critical, or business essential. With the publication of NIST Federal Information
tion decisions, and the IT security material weakness remained.         Processing Standard 199, Standards for Security Categorization of Federal Infor
                                                                        mation and Information Systems, agencies must now categorize information and
In early FY 2006, the acting CIO worked with the operating units        information systems as low, moderate, or high impact, based on the potential con
to reassess the schedule and give units more latitude on time frames    sequences to organizations and individuals should there be a breach of security.




September 2006/Semiannual Report to Congress	                                                                                                        1
Major Challenges for the Department




                                                                         Our review included two draft C&A packages for USPTO contrac
                                                                         tor systems, which we found to be of poor quality. Therefore, we
                                                                         also recommended that USPTO, which submits its performance
                                                                         and accountability report separately, report IT security as a mate
                                                                         rial weakness.

                                                                         Protection of Sensitive
                                                                         Agency Information

                                                                         After a recent series of incidents throughout the federal government
                                                                         involving the compromise or loss of sensitive personal information,
                                                                         the Office of Management and Budget (OMB) issued Memoran
                                                                         dum M-06-16 on June 23, 2006. The memorandum emphasized the
                                                                         need to protect personally identifiable information that is remotely
                                                                         accessed or physically removed from an agency location, required
                                                                         agencies to ensure that appropriate safeguards were in place within
                                                                         45 days, and asked inspectors general to conduct reviews.

                                                                         OMB defines personally identifiable information as “any informa
                                                                         tion about an individual maintained by an agency, including, but
                                                                         not limited to, education, financial transactions, medical history,
                                                                         and criminal or employment history and information which can be
                                                                         used to distinguish or trace an individual’s identity, such as their
                                                                         name, social security number, date and place of birth, mother’s
                                                                         maiden name, biometric records, etc., including any other personal
                                                                         information which is linked or linkable to an individual.”2
Source: http://csrc.nist.gov/policies/Whatagencycandonow-oMB-memo.pdf
                                                                         OMB’s memorandum included a checklist prepared by NIST for
                                                                         protection of remote information and recommended four additional
were high- and moderate impact contractor systems that had not.          actions: (1) encrypting all sensitive agency data on mobile com
(FISMA requires OIGs to review contractor systems.)                      puters/devices, (2) allowing remote access only with two-factor
                                                                         authentication,3 (3) using a “time-out” function for remote access
We found a larger percentage of C&A packages met the require             and mobile devices requiring user reauthentication after 30 minutes
ments of Commerce’s IT security policy and applicable National           of inactivity, and (4) logging all computer-readable data extracts
Institute of Standards and Technology (NIST) standards and               from databases holding sensitive information and verifying such
guidance (33 percent) as compared to last year (13 percent). But         extracts have been erased within 90 days if no longer needed.
progress has been slow. Overall, we found that security plans and
risk assessments have continued to improve. Security plans have          The President’s Council on Integrity and Efficiency (PCIE) pre
shown particular improvement in the identification of network            pared a review guide for inspectors general and was to provide a
components. To be consistent with NIST standards and guidance            government-wide report to OMB in October based on input from
and better support selection and tailoring of security controls, risk    IG reviews of their agencies.4 To evaluate Commerce, we selected
assessments now need to focus on specific threats and vulnerabili        a sample of 10 systems. This represents 16 percent of all systems
ties for a given system instead of considering all possible risks.       identified by Commerce bureaus as storing or processing person

We also found significant improvement in testing of the five sys
tems we reported as certified and accredited, as well as in testing
                                                                         2
                                                                           OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifi
                                                                         able Information and Incorporating the Cost for Security in Agency Information
of a system granted interim authorization to operate. However, the       Technology Investments, July 14, 2006.
remaining nine systems had serious deficiencies in the assessment        3
                                                                           Two-factor authentication is achieved by authenticating two of the following three
of security controls, particularly in the testing of operational and     factors: 1) “something you know” (e.g. a password), 2) “something you have” (i.e. 

technical controls needed to determine whether the security controls     in your possession at the time of the authentication), or 3) “something you are” 

for network components are in place and operating as intended. That      (e.g., a biometric such as your fingerprint)

                                                                         4
                                                                           The PCIE was established by Executive Order 12805, May 11, 1992, to address 

being the case, neither the certification agent nor the authorizing of   integrity, economy, and effectiveness issues that transcend individual government
ficial had adequate information on the remaining vulnerabilities, and    agencies, and increase the professionalism and effectiveness of IG personnel
we again found this to be a material weakness within Commerce.           throughout the government.




2                                                                                     U.S. Department of Commerce/Office of Inspector General
                                                                                                       Major Challenges for the Department




ally identifiable information and accessed remotely or physically      control assessments. The security control assessments did not
removed from an agency location. We reviewed the current sys           evaluate many of the system controls and were conducted without
tem security plan and all test results verifying that the applicable   adequate test procedures. Consequently, NOAA’s certification
controls are in place for each of these systems.                       process did not provide sufficient information to authorizing of
                                                                       ficials on remaining system vulnerabilities.
Because of the short time available to perform our work (results
were due to PCIE on September 22), our review was limited              In its response, NOAA stated that it had completed C&A activities
in scope, relying primarily on a comprehensive examination of          for POES and SARSAT nearly 14 months ago, had made immedi
security control test results provided by the operating units. Our     ate changes to its C&A process after our December 2005 exit con
FISMA work plan for FY 2007 includes actual testing of applicable      ference, and has implemented most of the changes recommended
security controls.                                                     in our report. However, as we noted in our report, we prepared
                                                                       the report because some of the problems we identified in our FY
We found that in most cases bureaus could not demonstrate that the     2005 and previous reviews were still evident in the additional five
necessary steps have been taken to ensure that personally identifi     NOAA C&A packages we reviewed early in FY 2006. We hope
able information is adequately safeguarded. None of the system         that documenting our concerns in this report and making formal
documentation reviewed indicated that personally identifiable          recommendations for improvement will facilitate complete cor
information was stored or processed, a step needed to determine        rection of these issues, many of which have persisted for some
the required safeguards. The Department’s IT security policy           time. (See page 33.)
does not explicitly address the protection needs associated with
personally identifiable information that is accessed remotely or       NOAA E-Authentication
physically removed. The Department’s OCIO has indicated that
a revised policy addressing personally identifiable information        E-authentication is the process of electronically verifying the
requirements will be available during FY 2007. Most of the sys         identities of users accessing government services over the Internet
tems we reviewed showed no evidence that required protections          and is crucial to the Department’s ability to properly authorize
for personally identifiable information transported and stored         access to data and hold users accountable for their actions. We
offsite, such as encryption, are implemented. There also was no        evaluated the quality of NOAA’s e-authentication risk assessment
evidence that protections are in place for remote access of person     and controls for SARSAT—the U.S. portion of an international
ally identifiable information, such as virtual private networks or     program that uses satellites to coordinate search and rescue activi
controls on downloading and storage of such data.                      ties. These controls, implemented for two SARSAT web-based
                                                                       applications, provide a first line of defense for beacon registration
To address the loss of sensitive personal information from laptop      data that is protected under the Privacy Act. According to NOAA’s
computers and related equipment at the Census Bureau, the Secre        e-authentication risk assessment, one consequence of unauthor
tary of Commerce asked OIG to determine the extent of problems         ized use of the SARSAT beacon registration system is that search
in protecting sensitive personal information at Census, including      and rescue personnel could waste valuable time using incorrect
whether property management policies and practices are adequate        or misleading data.
in light of the bureau’s unique workforce and mission. We plan to
report on the results of our evaluation in the next semiannual.        The objectives of our review were to determine if the risk assess
                                                                       ment adequately identified the requirements for e-authentication
NOAA C&A                                                               controls and whether the controls had been implemented and prop
                                                                       erly certified prior to the system’s accreditation. Our evaluation
In this semiannual period, we reported on findings from our FY         found that SARSAT’s e-authentication controls do not provide ad
2005 review of three NOAA C&A packages: the Search and Rescue          equate assurance of users’identities and recommended that NOAA
Satellite-Aided Tracking system (SARSAT), the Polar Operational        redo the e-authentication risk assessment to better characterize
Environmental Satellite Ground System (POES), and the Office           and assess authentication risk, improve the system security plan
of Response and Restoration Seattle Local Area Network (Seattle        to identify e-authentication requirements and appropriate controls,
LAN). Each of these systems was certified by NOAA personnel            test controls, and take actions to correct deficiencies.
and accredited by a senior NOAA official as part of NOAA’s C&A
improvement effort.                                                    NOAA disagreed with our conclusion that SARSAT’s e-authentica
                                                                       tion controls do not provide adequate assurance of users’identities,
Our report focused on two problem areas: incomplete system             but agreed with all but one of our recommendations. After we
descriptions and inadequate security control assessments. In           clarified the meaning of that recommendation—to document any
sufficiently complete system descriptions can yield inadequate         deficiencies identified as a result of performing e-authentication
identification and examination of system components in security        control testing—NOAA agreed with it as well. (See page 31.)




September 2006/Semiannual Report to Congress                                                                                             3
Major Challenges for the Department




IT Security Clauses in Contracts                                         For example, the Census Bureau’s contracting for products and
                                                                         services to support 2010 decennial operations continues to bear
We conducted an evaluation to determine whether NOAA is in               watching. The bureau estimates that 17 percent ($1.9 billion) of its
corporating the two information security clauses prescribed by the       2010 budget will be spent on contracts for information technology
Department into contracts and to evaluate implementation of the          systems, advertising, and leases for local office space. One key
clause requirements. Clause 73 requires contractors to comply with       IT program—Field Data Collection Automation (FDCA)—will
the Department’s IT security policy and have their IT resources          develop the handheld mobile computers that field staff will use
certified and accredited if they connect to a Commerce network           to collect 2010 decennial information. This is a critical piece of
or process or store government information. Clause 74 requires           the bureau’s reengineered strategy. Census originally planned to
contractor personnel to undergo appropriate background screening         develop this equipment in-house but determined in early 2004
and IT security awareness training.                                      that it lacked the management and technical resources to do so,
                                                                         and on March 31, 2006, awarded a system development contract.
We reviewed a judgmental sample of 16 NOAA service contracts             However, the late decision to use a contractor and the initial slow
and interviewed managers and staff from NOAA’s Office of                 pace in planning the acquisition shortened the amount of time
Acquisition and Grants, Office of the Chief Information Officer,         available for awarding the contract and developing FDCA. This
and line offices. Because some problematic aspects of Clause 73          will delay address canvassing, the first major field operation of
contributed to issues we identified at NOAA and in a previous re         the dress rehearsal for the 2010 census.
view at USPTO, we also made recommendations to Departmental
officials. Our report highlighted the need to clarify the require
ment to include Clause 73 in all contracts in which contractor IT
resources are either connected to a government trusted network or        Challenge 3
are allowed privileged access to government information. For the
Department, the evaluation identified needed improvements to the         Strengthen Internal Controls
IT security clause and the Commerce Acquisition Manual as well           Over Financial, Programmatic,
as the need for developing additional guidance to aid contracting
officers and contracting officer representatives in their oversight of   and Business Processes
contractor information security. For NOAA we identified improve
ments needed for ensuring the certification and accreditation, as        Internal controls are the steps agencies take to make sure their
appropriate, of contractor IT resources.                                 operations are effective, efficient, and in compliance with laws
                                                                         and regulations. Internal controls also ensure that financial re
Both the Department and NOAA agreed with our recommenda                  porting is reliable, and assets are safeguarded from waste, loss,
tions. On September 27, 2006, in response to our recommenda              or misappropriation, according to the Office of Management and
tions, the Department’s director of acquisition management and           Budget (OMB). Two documents, the Federal Managers’ Financial
procurement executive issued a procurement memorandum and                Integrity Act (FMFIA) and the 2004 revision of OMB Circular
Commerce Acquisition Manual notice with revisions to the clause          A-123 (Management’s Responsibility for Internal Control), set out
and changes to the approach to determine the level of contract risk      internal control requirements for the federal government: Com
so that personnel receive background investigations commensurate         merce and all federal agencies must define and document major
with the risk level. (See page 35.)                                      financial internal control processes and test key financial controls
                                                                         to determine whether they are effective as of June 30, 2006.

                                                                         Although we noted recent improvement in the Department’s
                                                                         management and financial accountability as well as in program
Challenge 2                                                              and operational effectiveness, our audits continually indicate more
                                                                         work is needed to strengthen internal controls over programs,
Effectively Manage                                                       operations, and administrative areas.
Departmental and Bureau
Acquisition Processes                                                    We expect the new federal emphasis on strong internal controls to
                                                                         create a number of new demands for OIG reviews in the coming
Commerce spends nearly $2 billion annually on goods and ser              years. For example, the Digital Television Transition and Public
vices—roughly a third of its annual appropriation—and each year          Safety Act of 2005 puts NTIA, one of the Department’s smaller
relies more on contractors to support its mission-critical work.         agencies, in a position of having to manage an enormous national
Adequate oversight of acquisition planning and execution is es           project with an even larger budget than had been anticipated. Suc
sential to ensuring that taxpayers dollars are spent effectively and     cessfully implementing this act will constitute a significant manage
efficiently and procurement laws and regulations are followed.           ment challenge for the Department. We will share lessons learned




4                                                                                   U.S. Department of Commerce/Office of Inspector General
                                                                                                      Major Challenges for the Department




from our work in other areas to help the agency design strong,        Challenge 5
well-structured programs and minimize opportunities for fraud.
                                                                      Control the Cost and Improve
                                                                      the Accuracy of the Decennial
Challenge 4                                                           Census
                                                                      Even after adjusting for inflation, the 2010 census will be the
Ensure that USPTO Uses Its                                            country’s most expensive decennial ever—estimated to cost
Authorities and Flexibilities                                         $11.3 billion. The Census Bureau’s redesigned decennial plan,
as a Performance-Based                                                established after the 2000 Census, is heavily dependent on auto
Organization to Achieve                                               mating critical field operations to accurately count the nation’s
                                                                      population within budget. The bureau has established a rigorous
Better Results                                                        testing schedule to monitor development and implementation of
                                                                      the strategy, identify problems, and incorporate solutions in time
Since March 2000 when the Patent and Trademark Office Efficiency
                                                                      for the decennial.
Act transformed USPTO into a performance-based organization de
signed to operate more like a private corporation than a government
                                                                      During the last 6 months, we built on the work we did in 2005 and
agency, OIG has paid close attention to a number of aspects of the
                                                                      early 2006, which reviewed the 2006 test’s address canvassing
organization’s internal management structures and practices.
                                                                      operation. This semiannual report details our review of Census’s
                                                                      test to enumerate the group quarters population (see page 19).
USPTO faces numerous challenges, such as a continuing increase in
applications, training about 1,000 newly hired examiners in Patents
                                                                      Although most U.S. residents live in residential housing units such
and Trademarks, and transitioning to an electronic processing envi
                                                                      as single-family houses, apartments, and mobile homes, more than
ronment. In addition, USPTO’s expanded authority over personnel
                                                                      7 million people live in situations such as college dormitories,
decisions and processes, procurement, and information technology
                                                                      nursing homes, prisons, and group homes, collectively known as
operations needs to be effectively and efficiently utilized.
                                                                      group quarters. We reviewed the group quarters testing operation
                                                                      at the Census Bureau’s test site in Travis County, Texas. The area
OIG has issued nearly a dozen reports examining problems at
                                                                      is ideal for testing the group quarters operation because it is home
USPTO since 2001. The bureau has generally taken decisive ac
                                                                      to four universities and colleges, a state prison, and numerous other
tion to address some problems we identified in the past, and we
                                                                      group living facilities.
have been pleased that USPTO has been receptive to our recom
mendations. But ultimately, we believe that many of the problems
USPTO suffers are serious and require the sustained commitment        New Methods, New Challenges
of senior managers to resolve. OIG will continue to monitor the
bureau’s progress.                                                    Our review found that although the bureau is working on new meth
                                                                      ods to better enumerate the group quarters population, it continues
                                                                      to face a number of challenges. For example, nontraditional student
                                                                      housing, such as private dorms and student cooperative housing, did
                                                                      not easily fit into any of Census’s group quarters definitions. Some
                                                                      times these units were defined as private residences and received
                                                                      housing unit questionnaires. In those cases, there was an increased
                                                                      likelihood that the unresponsive students had already moved out of
                                                                      their residence before the follow-up operation. When this occurred,
                                                                      enumerators relied on records kept in administrative offices, which
                                                                      often lacked Hispanic origin and race information. We also found
                                                                      that 42 percent of the validation workload was associated with large
                                                                      apartment complexes erroneously identified as potential group quar
                                                                      ters during address canvassing. This caused problems in the group
                                                                      quarters validation and the nonresponse follow-up operations.

                                                                      One of the objectives of our review was to independently assess
                                                                      the completeness of the group quarters listing prepared for the
A USPTO trademark information specialist assists customers.           Census 2006 test. The bureau used four sources to develop a list
                                                                      of all potential group quarters for the 2006 test, which was then
Source: uSpto




March 2006/Semiannual Report to Congress                                                                                                5
Major Challenges for the Department




                                              Group Quarters Activities in the 2006 Census Test
                                                                                                 Group Quarters
                              Group Quarters                                                                                       Group Quarters
    Operation                                                 Address Canvassing                Validation/Advance
                             List Development                                                                                       Enumeration
                                                                                                        Visit
                        June 004—with updates                     July 005—                    December 005—                     april 006—
       Dates
                      throughout 006 Census test                September 005                    January 006                      May 006
    Description       List created using                    Identified potential              Listers visited ,778         Enumeration of all
                      • 000 group quarters                 “other Living Quarters”           oLQs in austin and 84         identified group quarters
                      • administrative records              (oLQs)                            oLQs on the Cheyenne          facilities
                      • address canvassing (other                                             River Reservation to
                         Living Quarters)                   Ensured addresses were            designate address status
                      • other Census survey work            correct and/or made               as a
                                                            changes to update the             •    GQ
                                                            Master address File               •    Housing unit
                                                                                              •    nonresidential
                                                                                              •    Vacant
                                                                                              •    transient
                                                                                              •    Duplicate
                                                                                              •    other
                                                                                              Group quarters
                                                                                              administrators contacted
                                                                                              regarding upcoming
                                                                                              group quarters
                                                                                              enumeration; privacy
                                                                                              and confidentiality were
                                                                                              discussed

Source: u.S. Census Bureau, 2006 Census Test Project Management Plan, 00 Census Memoranda Series no. 8 (Reissue) December 005



refined by the group quarters validation operation, resulting in a
final list of group quarters to be enumerated. We found a number
of group quarters that were not on the final enumeration list by
conducting a limited Internet search and speaking with admin
istrators. We also found duplicates—addresses that appeared on
both the enumeration and housing unit lists or group quarters that
appeared twice on the enumeration list. These errors can result in
an inaccurate count of the population because individuals living
in group quarters enumerated via the household questionnaire
may be missed and duplicates on the list can result in people be
ing counted twice.

We also found that Census should take additional steps to count
the student population, such as working closely with fraternity
and sorority campus oversight organizations and exploring the
use of the Internet as a response option for this computer-oriented
generation. Finally, we noted that some additional group quarters
processes and procedures warrant management attention.

Looking Ahead

We continue to look at the update/enumerate operation at the                    More than a dozen group quarters—and possibly many more—were not
Cheyenne River Reservation and Off-Reservation Trust Land in                    on the Census Bureau’s enumeration list. This home is one of 15 missing
South Dakota. During this operation, which is used in communities               from the list that we found by conducting a limited Internet search.
where residents are less likely to return a completed questionnaire,            Source: oIG




6                                                                                             U.S. Department of Commerce/Office of Inspector General
                                                                                                             Major Challenges for the Department




enumerators update the address lists and maps and interview a
resident to complete a questionnaire for each housing unit. We
are assessing whether the update/enumerate operation obtained
complete and accurate enumerations, especially with respect to
large households, and if it resulted in improved address lists and
maps. We are also assessing the bureau’s method for designating
which communities require this type of enumeration.




Challenge 6

Effectively Manage the
Development and Acquisition
of Environmental Satellites                                            Source: http://goes.gsfc.nasa.gov/images/GoES-R_Color_Lg.jpg


Over the next 5 years, the Department, through NOAA, will spend        Commerce IG Johnnie E. Frazier reported our findings to the
several billion dollars in contracts for the purchase, construction,   House Science Committee in May (see page 50), as the recertifi
and modernization of environmental satellites.5 These systems,         cation process was in progress. In June, the Committee accepted
operated by NOAA’s National Environmental Satellite, Data and          a triagency proposal to continue the program with the following
Information Service (NESDIS), collect data to provide short- and       changes:6
long-range weather forecasts and a variety of other critical envi
                                                                       •	 Total acquisition costs were revised to $11.5 billion to support
ronmental and climate information.
                                                                          NPOESS satellite coverage through 2026.
Complex, high-cost acquisitions such as these are extremely dif        •	 The number of satellites was reduced from six to four, with the
ficult to manage within cost and schedule goals, as was revealed          U.S. relying on European satellites to fill in any gaps resulting
in our audit during this reporting period of the National Polar-          from the reduction.
orbiting Operational Environmental Satellite System (NPOESS)
                                                                       •	 The first satellite will launch in 2013 rather than 2010, as
(see page 29). This system—a joint project of NOAA, NASA, and
                                                                          proposed in the original program.
Defense—is critical to the nation’s ability to provide continuous
weather and environmental data for civilian and military needs         •	 The number of sensors will drop from seven to five.
through the coming 2 decades. Initially projected to cost $6.5 bil
                                                                       •	 Management reforms, including our recommendations for
lion, the program recently underwent a mandatory congressional
                                                                          improving EXCOM oversight and revising the award fee
review to see if it should be continued, given its troubling history
                                                                          contract, will be implemented.
of huge cost increases and schedule delays.
                                                                       This program will continue to bear close watching as it restructures
Congress Approves a Scaled-Back                                        and attempts to stay within its new cost and schedule goals, and
NPOESS Program                                                         we intend to follow its progress and keep Congress apprised of
                                                                       our findings.
Last November, the Department of Defense reported that NPOESS
costs had grown by 25 percent over original estimates—trig
                                                                       GOES-R Costs, Schedule, and Capabilities
gering the Nunn-McCurdy recertification provision of the FY
                                                                       Are Being Redefined
1982 National Defense Authorization Act. In addition to these
staggering cost increases, the program was running 17 months
                                                                       The GOES-R series is the next generation of geostationary satel
behind schedule yet the contractor had received $123 million in
                                                                       lites that will replace existing GOES satellites in the next decade.
incentive payments.
                                                                       The new series will have enhanced sensing capabilities that are
                                                                       expected to offer an uninterrupted flow of high-quality data to
We sought to determine how cost and schedule overruns had grown
                                                                       support weather forecasting, severe storm detection, and climate
so dramatically while the contractor had been so well rewarded.
                                                                       research vital to public safety. GOES-R is a multicontract, mul
We identified serious shortcomings in the contract’s incentive
structure as well as in program oversight from NPOESS’ execu
tive committee, which consists of top leadership from NOAA,            5
                                                                           http://www.osec.doc.gov/bmi/Budget/05APPR/PAR05.pdf, page 210
NASA, and Defense.                                                     6
                                                                           http://www.house.gov/science/hearings/full06/June%208/charter.pdf




September 2006/Semiannual Report to Congress                                                                                                   7
Major Challenges for the Department




tiyear program wholly funded by Commerce, though the new                will use to leverage NASA’s oversight expertise. We will also
satellites will be developed and acquired with help from NASA.          consider whether program staff report significant issues to senior
The Department’s investment for GOES-R for fiscal years 2006            Department and NOAA oversight officials in a timely fashion and
to 2010 is projected at about $2 billion.                               whether those officials take appropriate action.

Planning for the new series, which has been under way for the           Our acquisition focus will be on the program office’s overall ap
past 5 years, has given long and careful focus to the many risks        proach to procuring key satellite instruments, identifying potential
inherent in developing satellite programs. Even so, the NPOESS          risks, and implementing associated mitigation strategies. We will
experience has put new pressure on agency senior officials and          also assess the acquisition contracts’ award fee plans to determine
program planners to have strong mechanisms in place for tracking        whether they are structured to promote excellent performance.
every phase of the program and promptly mitigating problems
that arise.                                                             NASA OIG plans to determine whether NASA program manage
                                                                        ment councils effectively identify and review program issues and
During this semiannual period, we initiated a joint review of the       progress, and whether procedures and processes are in place to
GOES-R program with NASA’s Office of Inspector General. Our             recognize, mitigate, and report technical risks in accordance with
shared objective is to determine whether the Department and             NASA policy.
NASA have created a management structure to ensure effective
oversight of the many risks associated with the GOES-R program.
In preparing for the review, we learned that the Department,
NOAA, and NASA are restructuring major aspects of the program           Challenge 7
as part of detailed risk reduction activities. GOES-R leadership is
reassessing planned satellite capabilities and the timing of launches   Promote Fair Competition in
in response to input on costs and technological risks provided by       International Trade
an independent review team and contractors involved in defining
the program’s major aspects. In addition, program officials are         The Department of Commerce accomplishes its goals of promoting
considering changing approaches to managing the program and             trade, opening overseas markets to American firms, and protecting
acquiring the satellites.                                               U.S. industry from unfair competition by imports primarily through
                                                                        the work of the International Trade Administration (ITA). ITA
At Commerce, the oversight component of our work will look at the       also works with USPTO and NIST to assist U.S. companies with
Department and NOAA’s efforts to establish effective monitoring         intellectual property rights and standards. Over the past several
organizations, policies, and procedures and the mechanisms NOAA         years, OIG has focused a number of reviews on the Department’s




Source: u.S. Census Bureau




8                                                                                  U.S. Department of Commerce/Office of Inspector General
                                                                                                      Major Challenges for the Department




efforts to increase U.S. market opportunities, provide assistance
to U.S. exporters, and overcome trade barriers in difficult foreign
markets.

In September 2006, in response to OIG recommendations made to
ITA in several recent reports, the bureau’s Commercial Service (CS)
announced extensive changes in its procedures for verifying export
success claims, its primary performance measure. CS stated that the
new procedures were necessary because, in a significant number of
cases, OIG had found discrepancies in the reported export successes.
These discrepancies raised doubts about the integrity of the data
CS reports to Congress and the administration on its accomplish-
ments. The new CS procedures require improved documentation,
supervisory confirmation of a sample of export success reports, and
verification that CS provided value-added assistance.

In response to a request from the House Small Business Com-
mittee, we are reviewing coordination and information sharing
between Commerce and other U.S. government agencies with
responsibility for trade promotion. The review, which we will
discuss in our next semiannual report, will assess Commerce’s
efforts to match export opportunities with export-ready companies,
with a focus on trade promotion agencies’ use of the Internet to
communicate leads and other relevant trade information.

U.S. Trade Promotion in South America

During this semiannual period, we conducted on-site inspections
of CS posts in Brazil, Argentina, and Uruguay. Significant export      Source: OIG
opportunities are opening in these countries as Brazil’s large
economy continues its steady growth, Argentina recovers from
its 2001-2002 economic crisis, and Uruguay pursues closer trade        Challenge 8
relations with the United States. Our inspections focused on the
management, program operations, and financial and administra-          Effectively Manage NOAA’S
tive practices of these three South American posts. We issued our      Stewardship of Ocean and
report on CS’ operations in Argentina and Uruguay in September         Living Marine Resources
with 20 recommendations, and we will publish our report on CS’
larger post in Brazil before the end of the calendar year.             The National Oceanic and Atmospheric Administration is charged
                                                                       with monitoring the health of our nation’s ocean, coastal, and
Our review of CS Argentina and CS Uruguay found that the posts         Great Lakes resources; administering civilian ocean programs;
are providing useful export assistance to U.S. companies and have      and protecting and preserving the nation’s living marine resources
established collaborative relationships with key U.S. government       through scientific research, fisheries management, enforcement,
offices and nongovernmental organizations both in those countries      and habitat conservation.
and in the United States. Our review found effective administrative
management practices at both posts, but we also identified some        During the past year, we followed up on our audit of the National
financial management and accounting concerns that warrant the          Marine Fisheries Service’s (NMFS’) preparation of a biological
attention of Commerce managers (see page 25).                          opinion for California’s Central Valley Project, one of the nation’s
                                                                       major water conservation efforts. In response to our audit recom-
                                                                       mendations, NOAA received three reviews of the opinion. One
                                                                       review concluded that NMFS used the best scientific information
                                                                       for the biological opinion, but two reviews concluded that NMFS
                                                                       did not. In light of these findings, we asked NOAA officials to




September 2006/Semiannual Report to Congress                                                                                          11
submit to us a plan that identifies actions they will take to address
the deficiencies and implement the related recommendations made
by the independent review organizations.

NOAA’s future challenges include its efforts as a steward of marine
resources, the agency’s consultation process, and its management
of fisheries and marine mammals.



Challenge 9

Aggressively Monitor
Emergency Preparedness,
Safety, and Security
Responsibilities
                                                                        These nuclear reactors are among 16 in operation throughout India, and the
The Department of Commerce has a dual responsibility in the             country has plans to build 6 more over the next 2 years. Under the terms
area of emergency preparedness, safety, and security; not only          of a July 2006 agreement, the United States will give India greater access
must it be ready to protect 35,000+ employees and hundreds of           to dual-use technology to expand its civilian nuclear program and meet its
                                                                        burgeoning energy needs.
facilities, but because several Commerce programs are critical to
national preparedness and recovery efforts, it must support U.S.        Source: http://as.wn.com/i/d5/8c9997cde00.jpg and
                                                                        http://www.icjt.org/npp/podrobnosti.php?drzava=&lokacija=78
efforts to prepare for, respond to, and promote recovery from
major disasters.
                                                                        Challenge 10
We continue to monitor Commerce’s progress in resolving de
partmental emergency preparedness and security weaknesses we
identified in assessments conducted in 2002 and 2005. Although
                                                                        Enhance Export Controls for
Commerce has made significant improvement in emergency                  Dual-Use Commodities
preparedness to address some of the vulnerabilities, we found,
among other things, the need for better departmental guidance           The Department’s Bureau of Industry and Security (BIS) oversees
and oversight of emergency programs, risk assessments, occupant         the federal government’s export licensing system for dual-use
emergency plans, and security forces at its domestic operations, as     commodities and technology and is charged with advancing U.S.
well as better oversight of security upgrades and greater attention     national economic security interests by administering and enforc
to security at its overseas offices.                                    ing export controls. The primary goal of the licensing and enforce
                                                                        ment system is to prevent hostile nations and terrorist groups from
More recently, in our review of the Commerce workers’compensa           acquiring sensitive technologies and materials that have both
tion program, we recommended that the Department consolidate            civilian and military applications by controlling their export.
and analyze bureau safety data to help officials and managers
identify and correct problems. We also recommended the Depart           The National Defense Authorization Act (NDAA) for Fiscal
ment use this data to find ways to help prevent workplace injuries      Year 2000, as amended, directed the inspectors general of the
and lower the number of employees who file claims for workers’          departments of Commerce, Defense, Energy, and State, in con
compensation benefits.                                                  sultation with the directors of Central Intelligence7 and the FBI,
                                                                        to report to Congress by March 30, 2000, and annually until the
Finally, we are working with other PCIE members to publish              year 2007, on the adequacy of export controls and counterintel
a guide for evaluating emergency preparedness programs. The             ligence measures to prevent the acquisition of sensitive U.S.
guide should be a useful tool for conducting future OIG or man          technology and technical information by countries and entities
agement reviews of emergency preparedness in Commerce and               of concern. (The Office of Inspector General at the Department
other federal agencies.                                                 of Homeland Security also has participated since its establish
                                                                        ment in 2003.) In addition, the NDAA for FY 2001 requires

                                                                        7
                                                                          The Intelligence Reform and Terror Prevention Act of 2004 [Public Law 108
                                                                        458], dated December 17, 2004, established the Director of National Intelligence
                                                                        to serve as the head of the U.S. intelligence community.




10                                                                                   U.S. Department of Commerce/Office of Inspector General
                                                          the IGs to discuss in their annual interagency report the status
                                                          or disposition of recommendations made in prior-year reports
       Some Export Control Topics Covered
                                                          submitted under the act.
          by Interagency OIG Reviews
                                                          We have initiated our eighth and final NDAA required review,
   Federal automated export licensing systems             this time looking at the effectiveness of U.S. controls on dual-use
   Commerce Control List and u.S. Munitions List          exports to India. India presents unique challenges to U.S. com
                                                          mercial interests and export control policy. As one of the fastest
   Deemed exports                                         growing economies in the world, India offers expanding trade
                                                          opportunities for U.S. exporters but also increased competition
   Export enforcement                                     for U.S. industry and labor.
   Export licensing process for chemical and biological   We will detail the findings of our India evaluation in our March
   agents                                                 2007 semiannual report. And though this will conclude our statu
   u.S. dual-use export controls for China                tory reporting requirements under NDAA, we will continue to
                                                          monitor BIS’ efforts to implement and enforce dual-use export
   u.S. dual-use export controls for India (Commerce      controls, given the importance of this mission to the nation’s
   only)                                                  security. We will also follow up on our previous NDAA recom
                                                          mendations and report on BIS’ progress in implementing them in
                                                          our next semiannual report.




September 2006/Semiannual Report to Congress                                                                           1
